Monthly Update Report Data (sheet 1 of 2) Version 1.0
         Reporting OIG: Amtrak OIG

     Month Ending Date:   03/31/2009
       Submitter Name: Bret Coulson

  Submitter Contact Info: coulsob@amtrak.com

                                       Recovery Act Funds Used on Recovery Act Activity
   Program Source/        Program Source/Treasury       Total Funding           Total Obligations        Total Gross Outlays
   Treasury Account       Account Symbol: Account
 Symbol: Agency Code               Code

                                                                         $0                         $0                         $0




                                     Non-Recovery Act Funds Used on Recovery Act Activity
   Program Source/        Program Source/Treasury       Total Funding           Total Obligations        Total Gross Outlays
   Treasury Account       Account Symbol: Account
 Symbol: Agency Code               Code

                                                                         $0                         $0                         $0
      Monthly Update Report Data (sheet 2 of 2)
                                                   Reporting OIG:
                                                                    Amtrak OIG
                                              Month Ending Date:
                                                                                                                           3/31/2009
                                       Recovery Act Funds Used on Recovery Act Activity

No. Short bulleted list of the major actions taken to date             Short bulleted list of the major planned actions

  1
  2
  3
  4
  5
  6
  7
  8
  9
 10
 11
 12
 13
 14
 15
 16
 17
 18
 19
 20
 21




                                    Non-Recovery Act Funds Used on Recovery Act Activity

No. Short bulleted list of the major actions taken to date             Short bulleted list of the major planned actions

                                                                    (1) Establish a team of highly qualified auditors, investigators,
                                                                    and subject matter experts to successfully execute our
                                                                    mandate under the ARRA legislation.
  1
                                                                    (2) Provide up-front advice to Amtrak with regard to
                                                                    procurement practices, fraud prevention, risk management,
                                                                    program controls, and other topics that we believe will assist
                                                                    the organization in the successful completion of ARRA-funded
  2                                                                 programs and projects.
                                                                    (3) Perform risk management assessments on Amtrak’s
                                                                    portfolio of ARRA-funded programs, and prioritize our audit
                                                                    activities on the basis of the resulting risk profiles. This will
                                                                    also include the examination of past audit and investigation
  3                                                                 results as part of the risk assessment process.
                                                                    (4) Execute interim and final audits of ARRA-funded programs
                                                                    in accordance with standard audit practices. These audits will
                                                                    take place from the standpoints of fiscal management,
  4                                                                 program controls, reporting, and risk management.
                                                                    (5) Perform investigations as necessary when we are
                                                                    confronted with instances of perceived impropriety relating to
  5                                                                 ARRA-funded programs.
                                                                    (6) Provide all of the administrative functions required by
                                                                    ARRA-funded programs, as established by the Office of
  6                                                                 Management and Budgets.
  7
  8
  9
 10
 11
 12
 13
 14




                           Office of Inspector General Activities and Accomplishments
      Audits/Inspections/Evaluations/Reviews Initiated         0     Audits/Inspections/Evaluations/Reviews Issued                  0
                               Investigations Initiated        0                              Investigations Closed                 0
        Complaints of Whistleblower Reprisal Initiated         0      Complaints of Whistleblower Reprisal Closed                   0
                       Guidance Statement for Monthly Update Report to OMB

This spreadsheet provides the format to be used by the Office of Inspectors General in reporting
monthly updates to OMB on funding activity relating to the Recovery Act oversight activities. The first
worksheet (Monthly Update) is to report both Recovery Act funding and non-Recovery Act funding
activity directly relating to Recovery Act operations. Information reported on this worksheet is overall
summary level data and should be reported on a cumulative basis.

The second worksheet (Major Actions) reflects Recovery Act major actions, both taken to date and
planned by the OIG. This worksheet is broken out into three major sections. Two sections are for
reporting the Recovery Act major actions -- Recovery Act funding and non-Recovery Act funding.
Examples of major actions could include items such as contracting, hiring, specified audits,
developmental/educational programs, purchases, etc. The third section provides for the reporting of
statistical accomplishments relating to Recovery Act work.
